BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-14
CONGREGATION RABBINICAL COLLEGE OF TARTIKOV,
INC., ET AL.,

Petitioners,
V.

VILLAGE OF POMONA, NEW YORK, ET AL.,

Respondents.
As required by Supreme Court Rule 33. l(h), I
certify that the Motion for Leave to File and Brief
Amici Curiae of the National Jewish Commission on
Law and Public Affairs ("COLPA") and other Jewish
Organizations in Support of Petitioners contains 375
and 2,137 words, respectively, excluding the parts of
the Brief that are exempted by Supreme Court Rule
33.l(d).
I declare under penalty of perJury that the
foregoing is true and correct.
Executed on August 7, 2020.

Donna J. W l
Becker Gallagher Lega Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

Notary Public

Notary Public, State of Ohio
My Commlaaion Expires
February 14, 2023

